No. 19-161
In the Supreme Court of the Anited States

Department of Homeland Security, et al.,
Petitioners,

Uv

Vijayakumar Thuraissigiam,
Respondent.

On Writ of Certiorari to the United States Court of Appeals
for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the Brief for the States of
Illinois et al. as Amici Curiae in Support of Respondent contains 6,255 words,
excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Slivo,
Jane Elinor
100 West Randolph Street
12th Floor

Chicago, Illinois 60601
(312) 814-5376
jnotz@atg.state.il.us
Counsel for the State of Illinois

Executed on January 22, 2020.

   

 
